                     UNCLASSTFIED

    United States Department of State 

and the Broadcasting Board of Governors 

       Office of I nspector General 





           Office of Audits


   Review of the Information Security
   Program at the Department of State
                (FISMA)


    Report Number AUDIIT-08-36, October 2008




                                     Important Notice
 Thi s re port is in tended so lely for the o ffi cial use o f the Department o f State or
 any agency receiving the report directly fro m the Offi ce of Inspector General .
 No secondary di stributio n may be made o utside the Department o f State or by
 oth er agencies or organizations in who le o r in part, w ithout pri or authori zati on
 by the Inspector General. Plib lic availability o rthe doc ument will be determ ined
 by the Inspector General under the U.S . Code 5 U.S.C. 552. Improper
 disclosure of this report may result in criminal, civil, or admini strative penalti es.




                    UNCLASSiFIED
                                                                     Unjtcd Sta tes Depar1m ent of Stat e
                                                                    and the Broadc.:J.sting Board of Governors

                                                                     Office of Inspector General




                                                    PREFACE


       This report was prepared by !hot Office of Inspector General (OIG) pursuant to the
  Inspector General Act of 1978, as ame nded, Section 209 afthe Foreign Service Act of 1980,
  the Arms Control and Disarmament ..<\.m.endme nts Act of 1987, and the Department of State and
  Related Agencies Appropriations .'\(;t. FY 1996. It is one of a series of audit, inspection,
  investigative, and special reports prepared by OlG periodically as part of its o....ersight
  responsibility with respect to r.he Depanmem of State and the Broadcasting Board of Governers
  to identify and prevent fraud. waste, abuse.• and mismanagement.

       This report is the result of an assessment of the Strenb'lP.s and weaknesses oftbe office, pes-..,
  or function under review. It is based on interviews with employees and officials of relevant
  agencies and institutions. direct observation, and a review of applicable documents .

        The recommetlciations therein have· be~ n developed on the basis of me best knowledge
   available to the OIG, and have be~:1 discussed in draft with those responsible fo r
   implementation. It is my hope that these recommendations will result in more effective,
   efficient, and/or economical operations.

        I express my appreciatioo        ('0   ail of those who contributed to the preparation ofdUs report.




                                                      I jllccA.:~~t-
                                                       Mark W. Ducia
                                                       Assistant Inspector General for Audirs




.\ddress ;:orrellpondence 00:   U.S. Dep:l. rtl)l.O!!U o( State, Office of   [~o r   Ge neui, WashiDgtoD, O.c. 20522-0308
                            TABLE OF CONTENTS 




EXECUTIVE SUMMA RY ............ .... . .......... ............ .. ................................ 2 


BAC KGROUND .............................................................................................. 3 


SCOPE AN D METHODOLOGy ............ ... ......... ......................................... 4 


RESULTS ........................ ...... ..................... ..... .................. .. ............... 5 

     Inventory Managclncnt .. ............................. .. ..... ..... . ......... ... ..... .. ... .. 5 

     Plan or Act ion and Mi lestones Process......... ...... .. .......... .•............ .......... 8 

     Certification and Accreditation .. . .................. .•..................... . ...... ....... 12 

     Privacy ...................... ....................... ... .• .......... •. ........................ 18 

     Configuration Management. ........................................... ................... 20 

     Incident Reporting.................. . ...................................... , . ........ _..... 21 

     Security Awareness Training, Pccr-to-Pecr Fil e Sharing.... .. ... " ....... .. ........ 23 


RECOMMEN DAT IONS .. ... ... ...... ......... ............ .. .. . ... ... .......................... 25 


APP ENDIX A - Department Response . . ...... .. ......... ... , ........ ............ ............. 27 

    EXECUTIVE SUMMAR Y

            In response to the annual requirements of the Federal Information Security
    Management Act of 2002 (F ISMA), l the Office of Inspector General (O IG) performed an
    independent evaluation of the information security program at the Department of State
    (Department). OIG reviewed the Department's progress in addressing information
    management and information sec urity program requirements per FISMA and other
    statutory requirements, including Office ofManagemen Land Budget (OM B) guidance.
    The OIG team assessed performance in various areas, including inventory, plan of action
    and milestones (POA&M), certification and accreditation (C&A), security planning,
    co ntingency planning, risk management, incident response, security awareness and
    training, configuration management, and privacy requ irements .

        Since last ycar, the Department has taken several steps to improve management
controls, including conducting a comprehensive data ca ll of all of its domestic bureaus
and overseas posts in an effort to accurately identify its FISMA reportable inventory.
Th e Department improved its POA&M process by developing databases to manage the
POA&M process and posting a toolkit on its webs ite to assist system owners with the
POA&M process for those systems that require C&A. The Department' s C&A process
and quality also improved since OIG ' s review last year. The Department also has made
progress in addressing its privacy responsibilities. The Department documented its
agency-wide requirements for configuration management within policy established by the
Bureaus of Diplomatic Secu rity (DS) and Information Resource Management (IRM).
Further, the Department implemented several new initiatives in FV 2008 to improve its
incident reporting services and analyses. Finally, the Departmen t began addressing the
awareness training requirement for non-system employees-an issue previously reported
byOIG.

       While improvements have been made, O IG identified controls needing further
enhancements. Specifically. the Chief Information Officer (CIO) should ensure that:
       • 	 annual inventory data call activities are rescheduled to allow sufficient time to
           complete the analysis of pending items prior to the annual FISMA review;
       • 	 system owners are provided with improved gu idance for properly identifying
           contractor-owned or operated systems and how to report them fo r systems
           inventory purposes;
       • 	 national security systems arc properly class ified and accounted for by IRM and
           DS in their respective FISMA inventories;
       • 	 a method is developed and made available to systems owners for providing timely
           and complete updates to POA&M data ;
       • 	 system connection agreement controls between Department system owners and
           external connection system owners are developed and tested to serve as a
           compensating control for systems security plan testing;


I   44 U.s.C. § 3545 ct seq.



                                                                                               2
    • 	 critical contro ls are identified and tested annually;
    • 	 tbe policy on conti ngency planning is updated to include a requirements that test
        results are incorporated into an updated contingency plan;
    • 	 guidance is provided to systems owners for ensuring adequate docume ntation and
        incorporation of test results into the POA&M process;
    • 	 a process is developed and documented for identifying and describing 

        interconnectivity between contractor systems and the Department; 

    • 	 Interconnection Security Agreements and Memoranda of
        Agreement/Understanding are developed and maintained for contractor-owned
        and/or operated syste ms; and
    • 	 a process is established to monitor and validate security awareness training
        provided to those individuals without access to Department networks.

BACKG IWUND

        Section 3545 of FISMA directs each agency to conduct an annual independent
evaluation of its infonnation securi ty program and practices. FISMA provides a
comprehensive framework for establishing and ensuring the effectiveness of
management, operational , and technical controls over information technology (IT) that
supports federal ope rati ons and assets, and it provides a mechan ism for improved
oversight of federal agency infonnation secu rity programs. OMB Memorandum M-08­
21,2 issued on July 14,2008, contained gu idance to assist OIGs on reporting FISMA
pcrfonnance metrics.

        Section 3544(b) of FISMA requires that agencies develop, document, and
implement an agency-wide information sccurity program. As part of that program,
section 3544(b)(6) requ ires that the CIO devel op a process for planning, implementing,
evaluating, and documenting remedia l action to address any dcficiencies in the
information security policies, procedures, and practices of the agency. OMB
Memorandum M-04-25,J dated August 23, 2004, discusses the POA&M requirements for
federal agencies. which include identifying tasks that need to be accomplished, resources
required to accompl ish the elements of the POA&M , milestones to meet the task, and
scheduled milestonc completion dates. The memorandum includcs a spreadsheet to be
used as a model to develop POA&M s, including details such as identified weaknesses.
point of contact, resources required, scheduled comp letion date, milestones with
completion date, chan ges in milestones, identification of weaknesses, and status.
National Institute of Standards and Technology (N IST) SP 800-53 4 lists the security
controls that system owners should implement for their systems, depcnding on


= Office of Management and Budget Memorandum M-08-2 [. FY 1008 Reporting Instructiol/s/or the 

Fetierallnformlltion Secllrity Management Act and Agency Pril'lIcy Management, July 14. 200S. 

l Office of Management and Budget Memorandum M-04-25. Memorandum/or /-leads ofErccutive 


J)eparlmelll alld Agellcies. Augusl23, 2004. 

4NIST SP SOO·53, Recommended SecurityColllro/sfor Federa/lnformation Syslems. December 2006. 



                                                                                                  3
applicability to the system. The annual C&A process required by N IST SP 800-37 5
identifies security control weaknesses requiring remediation .

SCOPE AND           M~:THOI)OLOGY


         The O IG team consisted of staff with the OIG Office of Audi ts and the audit
services finn of Regis & Associates, PC. References to the work conducted for this
evaluation by OIG refer to this team. To perform the FISMA eva luation, O IG researched
 federal laws, regulations, and guidance to identify relevant criteria for implementing and
managing information security programs. To identify prior issues and to foll ow up on
past recommendations, OIG also reviewed previolls reports on evaluations of the
 Department's informati on security and privacy programs. OIG reviewed documents
provided by Department offic ials regarding systems inventory, C&A, POA&Ms, standard
operating procedures, process guides, and training. OIG's analysis was based on
 information and documentation for the period ending the third quarter ofFY 2008 to
allow sufficient time for analysis and verification by the team. The Department is
reporting its inventory numbers based on the fourth quarter of FY 2008. DIG
judgmentally selected a subset of21 of 182 high and moderate-impact leve l systems.
The Department's inventory comprised 357 systems. O IG selected its subset sample
from the high- and moderate-impact level systems, cons isting of 38 and 144 systems
respectively, for a total of 182. With this subset of2 1 systems, O IG performed an in­
depth review of the Department's management controls over its information systems
inventory, contingency plans and annualtcsting, C&A, POA&M , privacy, and
configuration management processes.

        O IG met with omcials in OS, IRM, and the Bureau of Admini stration (A Bureau)
to discuss roles and responsibi lities for implementin g and managing infonnation security
programs for Department networks. OIG met with OS and IRM officia ls regarding
C&A, configunnion management, the POA&M process, and security awareness training.
In addition , OIG met with o fficials in the A Bureau regarding privacy policy and the
protection of personally identifiab le infonnation CP II ). The team also sent a
questionnaire and contacted bureau system owners for the 21 sa mple systems to obtain
information pertaining to their respective information systems conceming the lifecycle of
systems. OIG discussed, with officials from OMB. expectations for govenunent-wide
compliance with redcral Desktop Core Configuration (rDCC) requi rements.

       The resu lts of OIG's review arc discussed below and in the attached reporting
template. OIG's Office of Audits conducted its fieldwork for this review from
June 19,2008, to August 29, 2008. A draft of this report was provided to officials in the
A, IRM , and OS bureaus for their management review and comment, and the comments
were considered and incorporated into this final report as appropriate.

        In its Octobe r 2, 2008, fonnal respo nse, Department officials concurred with all
of the recommendations made by OIG in thi s report (see Appendix A). Based on the

S   NIST SP 800-37, Gllide/or Ihe Security Certificatioll and Accreditation ofFederal 111formati011 Systems,
May 2004.


                                                                                                               4
correcti ve actions underway and planned, DIG considers all of the recommendations
resolved, pending final action. Comments or questions about the report may be directed
to Karen Bell , Deputy Assistant Inspector General for Audits, at bellk(@,state.gov or by
telephone at 70 3~2 84~26 04 .

RES ULTS

Inventory Management

         The Department has put significa nt effort into producing a re liable and accurate
inventory under the guidel ines of FISMA. For FYs 2007 and 2008 , the Depnrtmcnt has
conducted n comprehensive data call to all of its domestic bureaus and overseas posts in
an effort to iden ti fy all information systems and related assets. The Department's
methodology to detenninc its total number o f systems reportab le for FlSMA includes a
combination or Federal Information Process ing Standards (FI PS) Publi cati on 199 and the
Department of State Guidelines on Definitions Related to Federal Information Systems. 6
The Department's system inventory reported fo r FISMA is based on its in format ion as of
the fo urth quarter o f FY 2008. DIG perfo rmed its analysis of the inventory process and
reportable systems based on th ird quarter FV 2008 information because of report
dead lines.

       Improve men ts have been made in ach iev ing a complete systems inventory, but
more enhancements arc needed to ensure that all appl icab le systems and assets are
properly identi fi ed as or associated with reportable systems.

lmpro'l-'em ellts Af lute

         According to Department offi cia ls, the in ve ntory process includes an annual data
call to ident ify, qualify, and quantify all informat ion systems in use at each bureau and
overseas post. The process is intended to identify the universe of information systems
and IT assets such as networks (general s upport systems), applications, and websi tes.
Us ing the results o f the data call , IRM's Office o f Information Assurance (IRM/ IA)
populates two primary databases: the IT Asset Base line (lTAB) and the FISMA
Inventory Database. ITAB stores the universe of the Department's IT assets inventory
and is used to track and report the IT assets managed by the Department. The FISMA
In ventory Database stores information on identifi ed major informati on systems that arc
FISMA reportable. IRMIIA analyzes the data in the ITA B database with the asset owner
in order to identify the major information systems that should be reported in the in ventory
as those evaluated for FISMA compliance and inputs additi ona l information in to the
FISMA In ventory D'ltabasc.


6 FIPs Publication 199, Standards/or Security Categori=atioll 0/Federal Ill/ ormatioll "lid Ill/ormatioll
Systems, February 2004. The IJep(lrlmenl o/State Guidelines on Defillitions Related to Federal
Ill/ormalioll Syslems. May 2007. The overriding standard is Section G ofOMB Circular A-130,
Manag~ll1enl   of Federal Information Resources.



                                                                                                            5
        Per the Department's inventory pol icy7 in effect at the time ofO IG's review, the
FISMA reportable inventory cons ists of major information systems in accordance with
FIPS Publication 199 and includes agency systems, co ntractor systems, and websites.
Minor app lications and subsystems are aligned with rel ated networks based on business
functions. Further, the Department determi nes inclusion of an information system in its
inven tory by analyzing it in terms of its cost and security risk. In any f iven year, a
system is considered high cost ifit is a general support system (GSS); a maj or
acquisition per OMB Exhibit 300 9 subm ission; a subsystem within a major acquisition;
or has labor costs more than $500,000; 10 or total costs of more than $2 million. Based on
the Department's methodology, each major information system included in the inven tory
must also be categorized by its security risk ofhigh-, moderate-, or low- impact level, and
meet the cost criteria of high. Except for low impact-low cost systems, all other types are
considered by the Department to be major information systems and are included in the
FISMA inventory of systems . Systems not categorized by security risk are referred to as
"non-categorized." There were none ident ified by the Department in the inventory for
FY 2008.

        Based on OIG 's review of the Department 's inventory process as of the end of the
third quarter of FY 2008, the rationale and methodology fo r identify ing the FISMA ­
reportable inventory appears reasonable . However, OIG noted that the Department's
total number of systems may be incomplete because it had not completed its analysis of
IT items identified as "pending." Because the data call captures all types of IT assets,
OIG believes that it is reasonab le to expect that not all pending items will be classified as
systems .

Improvements Needed

          IRM/ IA's FISMA Inventory Database is updated from the annual data call and
refreshed/updated quarterly. According to IRM/IA officials, the FY 2008 data call,
initiated in April 2008, requested compre hensive IT systems and asset information . As of
August 2008, lRM/IA was still analyzing the data prov ided by domestic and overseas
information management perso nnel. "Pending" items represent agency-owned IT assets
captured from the data call in the ITAB database that have not been analyzed sufficiently
for IRM/IA to make a decision on whether these ite ms shou ld be included in the FISMA
Inventory Database. Because the data ca ll captures all types of IT assets, O IG be lieves
that it is reasonable to expect that not all pend ing items wi I] be classified as systems.


7 FIPS Publication 199, Standards for Security Categori=ation ofFederal Information alld Information

/))'stems, February 2004. the Department ofState Guidelines on Definitions Related to Federal
Informa/ion Systems, May 2007.
8 A general support system is an interconnected set of information resources under the same direct
management control that share common functionality . It nomlally includes hardware, software,
information, data, applications, communications, and people. Sources: NIST SP 800-53 and OMS Circu lar
A-l30, Appendix III.
9 OMS Exhibit 300 refers to Capital Asset Plan and Business Case Summary.
10 Subsequent to the initiation ofOIO 's review, the Department updated its definitions policy in July 2008
10 change the $500.000 labor cost threshold 10 mOTC than four full-time equivalent CITE) IT staff for any
gIven year.


                                                                                                         6
IRMIIA is not expected to complete its analysis of the pending items until the end of FY
2008. OIG notes that as oftbe preparation of this report, the Department had 355 items
listed as "pending." As a result, the Department' s agency-owned FISMA reportable
inventory for 2008 is based upon the major information systems identified in the database
as of the end of the third quarter, rather than for the entire fiscal year, and the inventory
may not be complete . IRM/ IA has not been able to complete its analysis oftbe pending
items list because of competing priorities for staff to address both the data call responses
and the FISM A review and reporting mi lestones. The Chief Information Secu rity Officer
(C ISO) stated that IRM /IA may adjust its data call time period so that all eva luati on and
verification can be completed prior to the next FISMA review .

         During its evaluation, OIG subm itted a questionnaire to the owners oftbe 21
se lected systems to obtain information on their overall system inventories, which
revealed that five contractor-owned and operated systems had not been included in the
ITAB database and that IRM/ IA had not been notified of the existence of these systems.
Specifically, the Global Financ ial Management System interfaces with the following
contractor-owned systems: Citibank, Carl son-Wagon lit ITS/GTS, American Express
ITS /GTS, US Bank!PowcrTrack, and Carlson-Wagonlit eTraveL These systems had not
been reported as inventory by the Bureau of Resource Management (RM), the business
unit for these fu nctions. Therefore, O IG initially concluded that these five contractor
systems should have been included in the Department's reportable inventory to ensure
contractor oversight. When these omissions were discussed with IRMIIA officials, they
responded that according to follow-up they subsequently conducted with the business
unit, four of the five systems shou ld be considered "corporate systems" and therefore are
not subject to FISMA compliance or included in the inventory as contractor systems
based on OMB reporting instructions. However, OIG did not separately verify with the
system owner that these systems arc corporate systems. The fifth system, Carlson­
Wagonlit eTravel, was determined by IRMIIA to already be in the FISMA inventory
under the name "E2Solutions E-Gov Travel Service."

         Per OMB requirements, all National Security Systems (NSS) are to be included in
the Department' s reportable inventory. NSS arc information systems used or operated by
an agency, by a contractor of an agency, or by another organization on behalf of an
agency, which invo lves inte lli gence activities, crypto logic activities, command and
control of military forces, eq uipment that is an integral part ofa weapon or weapons
system, or military or intelligence missions. OIG noted that the Department had
identified approx imately 30 NSS maj or information systems in its FISMA inventory.
However, by reviewing IRM ' s Systems In tegrity Divi sion website- which handles
cryptologic services-the OIG determined that three items identified as "systems" were
not listed in either the !TAB or the FISMA Inventory Database or identified by IRMIIA
as an NSS. As a result, O IG initially believed that the Department was not fully
evaluating or reporting a comp lete systems inventory, to include interfaces and
components of larger systems, for FI SMA comp li ance.

       In a meeting with IRMIJA and DS officials about this NSS discrepancy, OIG was
informed that these three systems are currently considered to be media devices



                                                                                           7
(hardware) used for processing manually derived infonnation, and should not have been
identified as systems on the IRM website. In addition, these three media devices are in
the process of being converted to electronic devices and will be combined under one
system known as "Co mmunications Security (COMSEC)," which will be ineluded in the
FY 2009 Intelligence Community FISMA inventory that DS maintains and which is
scparate from the FISMA inventory that IRMflA maintai ns. During this clarification
discussion, 010 observed the need for enhanced coordination and communication within
the Department with regard to the proper identification and classification ofNSS and
intelligence systems inventories.

       The data call efforts are a commendable and productive initiative by the
Department to reach out to all system owners to obtain comprehensive systems
information. However, conducting the annual data call earlier in the fisca l year may
enable the Department to complete its analysis earlier and include relevant assets in the
FISMA evaluation and reporting period. This may also permit IRM/ IA to use ITAB
more effectively as an interim repos itory for data analysis prior to inclusion in the
Department's FISMA Inventory Database.

Recommend ation I: The Chief Information Officer should reschedule annual inventory
data call activities to allow sufficient time to complete the analysis of pending items prior
to the annual FISMA review.

Reco m mendation 2: The Chief Information Officer should ensure that system owners
are provided with improved guidance for properly ident ifying co ntractor-owned or
operated systems and how to report them for systems inventory purposes.

Recomme ndation 3 : The Chief Information Officer should ensure that national security
systems arc properly classified and accounted for by the Bureaus of Information
Resources Management and Diplomatic Secu rity in their respective Federal Information
Security Management Act inventories.

Pla n of Actio n a nd Milestones Process

Improvem elJts /tI1{lde

        Agencies sho uld use the POA&M process as a management tool for identifying
and tracking remedial actions. The POA&M process is designed to resolve IT security
control weaknesses with prioritization to ensure vu lnerab ilities are addressed in a timely
and cost-effective manner. An elTcctive POA&M process ensures that security control
weaknesses do not result in the unauthorized access, use, disrupt ion, disclosure,
modification, or destruction of information.

       The Department exercised a focused effort and has markedly improved its
POA&M process s ince last year's FISMA review, specifically in the areas of
incorporating and prioritizing known IT security weaknesses; incorporating 010
lindings; and centra lly tracking, maintaining, and rev iewing POA&M activ iti es on a



                                                                                               8
regular basis. As a result, OIG has increased the status of five of six performance
elements for this fiscal year based on results of information as of the end of the third
quarter ofFY 2008. O IG reviewed information on the bu reau-level and Department­
wide databases that IRMIIA had developed to centralize and track POA&M actions. As a
result, based on an evaluation of the 21 selected systems, O IG coneluded that that the
Department's POA&M process incorporated over 95 percent of all known security
control weaknesses agency-wide. O IG found only one system in its samp le that did not
incorporate action items resulting From the C&A testing phase into the POA&M . OIG
also found that IRM/ IA regu larly tracked, maintained, and reviewed the POA&M action
items; however, it did not always rece ive timely and updated POA&M information from
the system owners throughout the year.

        As one of the sign ificant improvements made, IRMIIA developed bureau-level
and Department POA&M databases hOLlsed on IRM/ IA servers for each system owner to
use to manage its POA&M progress. IRMIIA also developed a toolkit on its website to
assist system owners with the POA&M process for those systems that require C&A. The
toolkit conta ins background infonnation, requirements, and frequently asked questio ns so
that system owne rs can document and track POA&Ms in a consistent manner. The
website contains presentations and information designed to educate system owners on
how to use the POA&M database. IRMIIA also provides wo rkshops for system owners
to better understand how to use the POA&M database tool.

        POA&M action items resu lt from security weaknesses that are identified through
tests and audits of security controls, as required by N IST SP 800-5 3. These tests and
audits include independent reviews, such as those conducted by OIG, the Government
Accountabil ity Office, and DS; penetration testing ; self-assessments; cont inuous
monitoring; and sec urity incidents. For systems req uiring C&A , security control
weaknesses arise during testing and should be remediated either through the POA&M
process or as an immediate action item. A POA&M action should be created when the
weakness cannot be corrected immediately.

        System owners record identified weaknesses in a POA&M tester database that is
submitted to IRMIIA; integrated into IRM/1A's bureau-level database ; and finally,
uploaded into the Department-wide POA&M database. From this database, IRM/ IA
tracks, maintains, and reviews the POA&M information for each bureau Department­
wide and generates reports for OMS submission. Weaknesses identified from OIG
reviews are also electronically transferred into the Department-wide POA&M database
via a data extract of information from the OIG Compliance Analysis Tracking
Database- a new effort initiated by the Department this year.

         O IG reviewed POA&M infonnation for the 21 systems identified for the FISMA
evaluat ion of a subset of systems, including the information contained within the
Department-wide POA&M database. O IG also uti lized a questionnaire with system
owners in nine bureaus to determine whether they used POA&M action items to
prioritize and address weaknesses requiring remediation. O IG also met with and
gathered supporting information from IRMIIA officials. Based on its review, 010



                                                                                        9
observed that the Department's POA&M process is an agency-w ide process and that
slightly over 95 percent of the 21 system s revi ewed incorporated all known IT security
weaknesses. The system owners trac k POA&Ms to completion and use the information
to plan and prioritize resources as needed to address systems security. Further, the
Department CIO and CISO jointly rev iew POA&M inforrnation on a quarterly basis.
Additionally, IRMflA personnel review the POA&M bureau-level databases and contact
system owners when corrective actions for POA&M items are overdue. IRM/IA
monitors the databases closely and provides assistance where needed to ensure that the
POA&Ms are addressed .

         During FY 2008, the Department also implemented the pilot phase ofa Site Risk
Scoring process to measure IT security vulnerabilities and risks at each domestic and
overseas site. According to IRMIIA officials during di scussions with and demonstrations
for OIG, the scoring process provides Informati on Management Officers, Information
Systems Security Officers, and syste m owners with details of vulnerabilities present on
devices at the site and shows managers their relevant risk co mpared with the risk of the
rest of the organ iza ti on. The scori ng process assigns a letter grade to respon sible
business units and helps identify and analyze the risks present at each site. While OIG
did not evaluate this process and cannot providc an assessment of its effectiveness at this
time, it received bricfings and discussed the process with IRMIIA officials to obtain an
understanding of its merits. The Department plans to incorporate the site-ri sk grading
result into the current POA&M process so that it is addressed as a POA&M action item
when improvements are needed to increase grading.

Improvements Needed

        OIG determined that the Department included the POA&M s in the bureau level
database and in the Department POA&M database, but that the system owners did not
always provide timely updates to IRM. To compare POA&M infonnation from the
testing phase to the Department-wide POA&M database, OIG obtained POA&M
informatio n via the electronic C&A packages in the OIG read-only folder created by
IRM/IA for the subset of systems in its FISMA review. Although OIG reviewed the
POA&M process and relevant information, it did not substantively test them to ensure
that they contained all actions resulting from C&A testing of the NIST SP 800-53
controls and that the actions were consistently prioritized. Howeve r, OIG observed that
for three systems, several exceptions that resulted from the C&A testing phase were not
included as POA&M action items, but that the majority were excluded fo r valid reasons.
OIG discussed the exceptions with IRM/ IA offic ia ls and was told that the items shou ld
have been incllJded in a follow-on POA&M for only one of the three systems because of
NIST SP 800-53 specificatio ns in testing discretion. The other two systems had valid
exceptions that resulted from testing, and , therefore, were not required to report POA&M
action items. One system was a NSS and testing ofN IST SP 800-53 security controls
was not required, and the other system did not require testing of all controls because of
the NIST SP 800-53 discretion given to testers . For the system where POA&M action
items were necessary, IRM/ IA planned to enter the exceptions into the Department
POA&M database and form POA&M action items during the fourth quarter of FY 2008.



                                                                                        10
       Regarding the accuracy and comp leteness of existing informati on in the POA&M
databases, OIG obse rved that the bureaus had not always provided all necessary
information to IRM/ IA to update the bureau-level database and consequently, the
Department POA&M database. Previously, IRM/ IA used SAFlRE l1 to maintain
POA&M data and bureau officials updated relevant informati on in the application.
During the past year, IRMIIA offic ial s transferred the information from SAFIRE into the
Department POA&M database . However, during the time ofO IG's review, the
Department database did not contain current POA&M informat ion in all instances.

        OIG observed that the Department-wide POA&M database did not always reflect
currcnt information concerning points of contact, closed action items, and milestone
changes. IRM/IA orricials stated that they have asked bureau orric ials for this missing
information, but that they have not always received it . Also, IRM/ IA officials stated that
they did not always receive updated POA&M information from the system owners. OIG
verified this matter while reqllesting POA&M information from system owners. For
example, OIG noted occu rrences of POA&M status for a particu lar system shown as
"open " in the Department-wide POA&M database when in fact the system owner had
already addressed and closed the item. DIG also observed that points of contact li sted in
the POA&M database were incorrect- another issue that IRM/ IA officials confirmed and
need to address with syste m owners.

         Additiona lly, DIG determined that the POA&M database did not show an audit
trail of milestone date changes. Specifica lly, the POA&M action items did not contain
milestones, and showed only the cu rrent scheduled completion dates. Per OMS
Memorandum M_04_25 ,12 agencies shou ld include milestones and date changes in the
POA&M process. IRM/ IA officia ls, however, indicated that the gu idance did not require
the milestone changes to be listed but only suggested that the agencies include sLich
information. While this is a valid interpretation of the guidance, OIG believes that it
would be a good business practice for the Department to consider tracking the milestones
for implementing the POA&M action items and document any changes to the milestone
dates to ensure an audit trail is available for the Department to identify whether POA&M
actions are progressing effectively.

       According Lo IRM/ IA, the CIO is contacting system owners via letters and
telephone calls to detail thcir respective POA&M status. The contact advises system
owners that they will not be viewed favorably during the FISMA review if they do not
provide current information to IRM/ IA. OIG agrees with this approach and further
encourages the Department to develop a mechanism for ensuring that the system owners
provide updated POA&M informat ion to IRM/ IA on a regular basis. The Department has
made progress with its overa ll POA&M process; however, these additional measures with



11The Slate Automated F1SMA Environment Reporting tool was used by the Department to record the
inventory ofappJications prior to using ITAB, the Information Technology Applications Baseline.
1< Office   of Management and Budget Memorandum M-04-25 , Memorandumfor Heads ofErecll/ive
Dep(lrlmelll and Agellcies, August 23 , 1004.



                                                                                                  II
system owners will further strengthen thi s process, including reporting cu rrent and
accu rate information to Department management and OMB.

Rccommcndation 4: The Chief Information Officer should coordinate with system
owners to develop a method to ensure that each system owner provides timely and
complete updates to plans of action and milestones databases and relevant officials.
including the Bureau o f Information Resources Management, Office of Information
Assurance, on a regular basis.

Certification and Accreditation

         Thc Department ha s made signi ficant improvement this fiscal year in providing
the su pporting documentation that demonstrates its compliance with C&A of Federal
information system s standard s under guidance found in OMB Circular A- I 3D, Appendix
III , Security oj Federal injormation Resources and NIST SP 800-37, Guide jar Ihe
Security Cerlijicalion and Accredilalion oj Federal injormation Syslems. As such, OIG
has increased the overa ll rating in this disc ip line from "satisfactory" to "good."

        In accordance with OMB and NIST guidance, agency management offic ial s are to
provide authorization to process informati on as a resu lt of the accreditation process.
Management ' s authorization shou ld be based on an assessment of management,
operational, and technical controls evaluated during a detailed security review of an
information system, referred to as security certification. The security certification and
accreditati on process consists o f four distinct phases: initiati on, security certification,
security accreditation , and continuous monitoring .

         As a part ofO [G ' s review, a subset o f21 systems was judgmentally selected and
reviewed from the Department 's third quarter FY 2008 in ventory li sting to assess the
Department's C&A process. O IG conducted a risk assessment of the over 500 controls
established in Appendix D o f NIST SP 800-53, Rev ision 1 13 to select a sampl e of 50
specific con trol s to use to evaluate and rate the Departmen t's C&A process. T he spec ifi c
contro ls cover a broad breadth of information-security risk areas such as the ex istence of
C&A doc umentation, quality factors ofC&A documentation and related process, annual
system testing, contingency plan testing, and contractor system oversight.

         For each of the 21 syste ms evaluated, OIG reviewed the docum entat ion that
identified, certified, and accredited the security controls and found that 19 of the 21
subset sample systems had complete C&A documentation in accordance with N IST
standards. Based on its review, O IG concluded that the documentation for the sampled
systems demonstrated an overa ll good quality rating for the first three phases of the C&A
process (i .e., initiation , secu rity certification, and security accreditation). Further, OIG
identified that anllual system testing was conducted as part of the continuous monitori ng
phase for each o f the sampled systems. However, O IG identified several areas where the
documentation for the qua lity of testing was mi ssing or not complete. The following

Il   National Inst itutes of Standards and Technology Special Publication 800-53 Revision I, Recommended
SecllrilY Comrols for Federal b iforllla/ioll SySleJ/ts. December 2006.


                                                                                                       [2
secti on discusses OIG's C&A results that correspond to OMB's FISMA tem plate
questi ons.

C&A Quality

        O IG rated the overall quality of the Department's C&A process as "good." To
evaluate the quality of the C&A process, OIG reviewed systems documentation for the 21
subset systems to determ ine the existence of systems controls testing. The results of the
OIG review determined tbat of the identifi ed key contro ls, the documentation for all but
one control, System Connect ion Agreements, was adequate. Specifically, OIG identified
weak documentation, and no testing for half of the 21 systems for the System Connect ion
Agreemen t control when it reviewed systems security plans and certification reports.

        In accordance with N IST SP 800-53, the agency sho uld authorize all interfaces
between information systems through the usc o f the system connection agreement control
(CA~3) and monitor the system connect io ns on an ongoing basis. Some of the systems
documentation indicated that the authors of the system sec urity plans expected
interconnections for external syste ms to be addressed by the systems security plan for the
Open Net (the Department's unclassified network); however, OIG did 110t find that this
occu rred in documentation reviewed . Further, annual testing for the information syste ms
connection agreement control was not conducted for II of the 21 sampled systems. If
system connection agreements are not documented and tested, management's knowledge
about data interface risks is limited, which coul d resu lt in unauthorized data changes or
unauthorized data use. Development and periodic testing of the CA~3 system connection
agreement control between Department system owners and external connection system
owners would act as a compensating con trol for this weakness .

Recommendation 5: The Chief Information Officer shou ld deve lop and test system
connection agreement con trol (NIST SP 800~53 control CA-3) between Department
system owners and external connect ion system owners to serve as a compensating control
for systems security plan testing.

C&A Testil1g

        O IG' s review of the Department ' s documentation for C&A security controls
testing demonstrates that annual testing has been comp leted for the 21 sampled systems.
OIG selected a sample of36 of the NlST SP 800~53 contro ls. Based on NIST SP 800 ~ 53
Rev ision I, control CA~ 7 for Continuous Monitoring requires that those security controls
that are volatile or crit ical to protect ing the information system be assessed at least
annually. The 36 controls tested were se lected as cri tical contro ls based on OIG's
professional judgment regarding the intent of the N IST criteria. OIG found satisfactory
results recorded for 16 of the 36 controls. However, as shown in Table I, OIG did not
find documentation to support whether testing had been cond ucted for the remaining 20
sampled controls during the annual testing. The scope ofOIG's assessment for the
FISMA review did not include a review of system control failures or an in-depth review




                                                                                        13
of DS testing. Consequently, OIG cannot detcnn ine whether the control testing
weaknesses have resulted in any inc idents or failures.

                        Ta ble 1: Annu a l C&A Security Control Testin g Gaps
     C& A Sec ur ity Controls With out Sunnortinl! T est Rcsults Documcntation
AC-2 Account Management CA -3 System Connections             PS-6 Access Agreements
                                                            PS-7 Third Party Personnel
AC -3 Access Enforcement             IA-2 User ID
                                                            Agreements (Contractors)
                                                               SA-6 Software User
AC-5 Separation of Duties     IA-4 Identi fi er Information
                                                                    Restrictions
                                  IA-5 Authenticator
  AC-6 Least Privilege                                        SI-2 Flaw Remediation
                                     Management
                                 IA-7 Cryptographic              SI-IO Information
   AC-1 3 Supervision
                                    Au thentication          Accuracy, ComDleteness
                                   MA-2 Controlled
 AU-2 Auditable Events                                         SI-II Error Handling
                                     Maintenance
 AU-6 Audit Monitoring         PS-5 Personnel Transfers
Source: NIST Special Publ icmioll 800-53 , Revision I.

Legend '
AC - Access Controls                                          MA - Maintenance
AU - Aud it and Accounmbilny                                  PS - Personnel S ~"(:unty
eA - Certification. Accreditation and Sec urity A%\'ssmen!S   SA - System and Services Agreement
111 - Ide ntifi cat ion and Authentication                    SI - S stem and Information Inte rl




         NIST SP 800-37 allows for an ann ual subset of controls to be tested within the
three year C&A auth orization cycle. However, critica l contro ls should be tested annually
for high- and moderate-risk systems in accordance with the N IST SP 800-53 Revi sion I
control standard for continuous monitoring (CA-7). The gaps in testing for the critical
controls identified by the OIG appear to be the result of limited testing oversight. The
team noted that gaps in testing were present in most of the sampled syslcms, and
appeared to be for critica l controls. IRM/ IA omcials told OIG that their determination of
critical controls to be tested is a system-based approac h, and that it has not developed a
baseline set of critical controls to be tested for all systems. However, OIG believes that
the risk for not testing critical controls is that correspond ing controls may fail, which
could result in unauthorized data changes or use. A centrally maintained record of the
testing cycle with results for all N IST SP 800-53 controls would improve monitoring.

Recommen d.ltion 6 : The Chief Informat ion Officer shou ld review the security control
testing program to ensure that all critical control s are identified and tested at least
annually for high and moderate risk systems.




                                                                                                    14
C&A Contingency Plllmi

        To evaluate compliance with contingency plan 14 testing for the subset of systems
reviewed , DIG considered documentary evidence using N IST SP 800-53 control
objective CPA (contingency plan testing and exercises) that included a review of
management letters to confinn that an annual contingency plan test had been conducted.
In addition, as a part ofO IG ' s review, co ntrol objective CP-5 (contingency plan update)
was also reviewed to determine whether the contingency plan was revised or updated 10
address problems encountered during plan implementation, execution , or testing. Lastly ,
the corresponding POA&M s for these systems were rev iewed fo r control objective CA-5
(Plan of Action and Milestones) to determine whether test results were incorporated and
corrective actions were implemented.

        NIST SP 800-34, Contingency Planning Guide/or In/ormation Technology
Systems. recommends that test results and lessons learned be documented and reviewed .
In addition, informat ion collected during the test and post-test reviews that improve plan
effectiveness should be incorporated into the contingency plan. Per N IST SP 800-53,
PDA&M updates should be based on find ings from security control assess ments, security
impact analyses, and continuous monitoring activities that include contingency planning.
Further, the Department ' s policy on contingency p lans, contained in Chapter 5 oftbe
Fore ign Affairs Manual (F AM), sectio n 1064.2,1 requires that copies of the contingency
plan and lest results be retained for review.

        Based on the results of its evaluation, OIG found that the documentation for 18 of
the 21 subset samp led systems provided evidence that an nual contingency plan test ing
and exercises (C P-4) were comp leted. However, DIG also found that only 5 of the 21
subset samp led syste ms had documentation to support that cont ingency plans had been
updated and/or that test results had been incorporated into POA&Ms in accordance with
control objective e p-5. IRMflA has begun implementing a new policy to require an
attachmenllo the management letters that details test results and plan updates. The
quality of contingency plans and testing should improve overall once IRM/IA ' s new
attachment and associated quality review are fully implemented.

Recommendation 7: The Chief Information Officer should update its policy on
contingency planning to require that contingency plan test results be incorporated into an
updated system contingency plan.

Recommendation 8: The Chief Information Officer should provide guidance to system
owners to ensure that contingency plan test results are adequately documented and
incorporated, as needed, into the plans of action and milestone process.




I~ The contingency plan is a coordinated strategy involving plans, procedures, and technical measures to 

enable the recovery of information systems after a disruption. 

IS 5 FAM 1064.2, COl1lillgelKY Planllillg and Cominl/if), of Operations, August 1, 2007. 





                                                                                                             15
Coltfmc/or Opemted or Used Systems

        As a part orthe testing methodology conducted by OIG, responses From system
owners and two security controls identified in NIST SP 800-53, Revision I, were used to
evaluate the existence and adequacy of the Department's compliance with respect to
performing contractor oversight and eval uation . OMB ' s instructions for FISMA
compliancc reporting include identifying contractor systems used or operated by a
contractor on behalf of an agency or Department. To corroborate the Department's
inventory of contractor systems, O IG adm inistered a questionnaire to system owners
regarding the existence of such systems not prev iously reported for inventory purposes.
To evaluate oversight and evaluation of contractor systems, O IG reviewed the system
security plans (SSP) and other rclevant documentation pertain ing to testing conducted
during FY 2008 to determine whether the two N IST controls described below were
included in testing plans and results for the 21 systems sampled. 010 considered both
controls to be critical and subject to ann ual testing based on O IG' s professional judgment
regarding the intent of the N IST criteria. O IG considered both annual and C&A testing
performed during FY 2008 in its eva luation. Specifical ly, these evaluation factors were
used:

    • 	 CA-3 Information System Connections - Certification, Accreditation and Security
        Assessment Control: This contro l requires that the organizat ion authorizes all
        connections from the information system to other information system outside of
        the accrcditation boundary through the use of system connection agreements and
        that it monitor/control the system connections on an ongoing basis.
   • 	 AC- 13 Superv ision <lnd Rev iew - Access Control: Th is control requi res the
       organization to supervise and rev iew the activ ities or users with respect to the
       enforcement and usage of informat ion system access controls.
   • 	 DIG Questionnaire: System owners were asked, "D id your most recent
       submission to the IRM ITAB incl ude all systems owned by contractors used to
       support the business processes su pported by your sampled systcm(s)?"

        DIG identified four orthe 2 I sampled systems that did not fully comply with
thesc controls:

   • 	 Global Financial Management System (GFMS) - The respondent to DIG' s
       questionnaire identified five unreported contractor-owned systems that interface
       with the GFMS: Citibank, Carlson- Wagonl it ITS/GTS, American Express
       ITS/OTS, US BanklPowerTrack, and Carlson-Wagon lit eTravel. However, in
       evaluating for compliance with control CA-3 , DIG fo und that the SSP did not
       include an Interconnection Security Agreements (ISA) or Memoranda of
       Understanding/Agreement (MDU/ A) for system connections for these five
       contractor systems and that there was no test ing for CA-3 controls on GFMS
       performed during FY 2008. DIG reviewed documentation which supports that the
       AC-13 control was tested and successfully passed.




                                                                                            16
     • 	 Passport Information Electronic Reco rds Syste m (P[ ERS) - The OIG's review
         found that the SS P did not include Memoranda of Understanding (MOU) fo r
         system connections with co ntract users, and that there was no testing of system
         connection agreements pu rsuant to control CA -3; although the PI ERS system
         owner ind icated that system control s were in place in response to OIG 's
         questi onnaire. In a separate review of PI ERS 16, OIG fo und weaknesses in
         contractor access oversight controls as a result of a sec uri ty incident involving a
         privacy breach caused by un authorized access to data by a contractor with access
         to PIERS . O[G reviewed documentat ion wh ich supports that the AC-13 control
         was tcsted and successfully passe d.
     • 	 Student Training Management System (STMS) - D IG fo und that the AC-1 3
         control was not tested during FY 2008, although the system owner's response to
         the OIG's question naire indicated that contractor access control violations were
         supervised. STMS is operated largely by contractors with access to PII through
         an interface with the Department's Global Employee Management System
         (GEMS). Because AC - 13 ha s not been tested, there is no corroborating evidence
         that access control violations by contractors are supervised. Regarding contro l
         CA -3, OIG found thal although the SS P did not include an IS A or MOU for
         system connecti ons wit h GEMS, the control was success full y tested.
     • 	 Bureau of Internat ional Narcotics and Law Enforcement Affairs enterprise
         network (GINL) - DIG did not receive a response to its management
         quest ionnaire for the G INL, desp ite repeated attempts to obta in it. Based on
         documentation in the SSP, DIG found that a major contractor for the Department,
         shares informat ion with O rNL. However, no ISA or MO U for th is
         interconnection was referenced in the SS P and there was no test conducted for
         control CA -3. Conseque ntly, contractor oversight may not be in effect for this
         criti cal infonnation-sharing process. DIG reviewed documentation which supports
         that the AC- 13 control was successfu lly tested.

        As detailed above, D IG identi fied deficiencies for critical contractor oversight
controls in these fo ur systems. Fede ral policy requires federal agencies to establish
interconnection agreemen ts. Specifically, OMB Circular A- 130, Append ix Ill , requ ires
agenc ies to obtain written management authorization before connecting their IT systems
to other systems, based on an acceptable level of risk. Further, NIST SP 800-4 7,17
provides guidance for planning, establ ishing, maintai ning, and terminating
interconnections between infonnation technology (IT) systems.

       The Department could experien ce unknown exposu re of unauthorized changes or
use to Department data if these two critica l controls arc ineffective. Further, the
Department may not have reasonable assurance that controls are implemented co rrectly,
are operating as inte nded , and are producing the desired outcome with respect to meeting


16 AUO/1P-08-29, Review o/Colltrols and Notifica/ion/or Access to Passport Record~ ill the Depar/I1I(:tI1 0/ 

S/(I/e's Passporf /II/orma/ioll ElectrOllic Records System (P/ER1:JJ, July 2008. 

17 NIST SP 800-47, Security Guide/or Interconnecting biformGliofl TechnologySy.\·tems, August 2002. 





                                                                                                         17
the security requirements of the Department. In addition, the Department may not be
fully aware of the security control weaknesses impacting its systems, thereby leaving its
information and systems vulnerable to attack or compromise. Therefore, OIG concluded
that 4 of the 21 sampled systems (GFMS, PIERS , STMS, and G INL) are not fully
compliant with OM B's contractor oversight requirements, result ing in a compliance rate
of81% .

Recomm e nda tion 9: The Chief Information Officer should develop and document a
process for management and oversight o f contractor-owned and/or operated information
systems. This documented process shou ld include, at a minimum, the process for
identifying and describing the intcrconn eclivilY between contractor systems and the
Department.

Rcco m mcnd ation 10: The Chief Information Officer should develop and ma intain
Interconnection Security Agreements and Memoranda of Understanding! Agreements in
System Security Accreditation files.

Privacy

        Since last year's FISMA review, the Department has made progress in addressing
its privacy responsibilities, and OIG has raised the overall rati ngs in this discipline from
"satisfactory" to "good." The Assistant Secretary for Administration serves as the
Department's Senior Agency Official for Privacy and is the delegated authority for
privacy oversight Department-wide. The Assistant Secretary administers this
responsibility through the Privacy Protection Governance Board (PPGB), which consists
of the CIO and various bureaus, including Consular Affairs (CA) and DS. Further,
additional improveme nts regarding privacy impact assessments (PIA) and protecting PII
arc underway.

        Privacy guidance and provisions for all federa l agencies is described in Section
208 of the E-Government Act of 2002 18 and OMB Memorandum M-03 -22, Guidance jor
Implementing the Privacy Provisions of/he E-Government Ac! of2002. Per the E­
Government Act of2002, agencies are required to co nduct PI As for electronic
information systems and collection, and make the assessments publicly available.
Further, the agency mllst post privacy policies on agency websites and translate privacy
policies into a standardized machine-readable format. OMB Memorandum M-03-22
provides additional guidance to the agencies and it directs them to conduct reviews of
how information about individuals is handled within the ir agency when they use
electronic means to collect new information, or whcn agencies develop or buy new
systems to handle collections of PIJ.

        The Department posted privacy policies on Bureau o f Administration 's Intranet
privacy/PII website, which describe all necessary federal and Department privacy
regulations. The website includes the Dcpartment 's " Privacy Impact Assessment Guide


II   Pub. L. No. 107-347, 44 U.S.C. §§ 3601 -06.


                                                                                           18
and Template" issued in J une 2008. The document contains guidance for writing PIAs
and specific instructions to system owners for answcring questions contained on the
updated template . According to agency officials, the goa l for the Department is to have
all privacy systems comply with gu idance as new assessmen ts are created and exist ing
ones arc updated. In addition, the Privacy Offi ce finalized the Department's Personally
Identifiable Information Breach Response Policy in May 2008. An official in tbe Privacy
Office also stated that Plltraining bas been deve loped and is available.

        OIG reviewed the contents of a sampl e of ten PIAs from a universe of 61 systems
that the Department identified as requiring PIA s to assess compl iance with the
Department's privacy procedures and policies in effect at the time of its review. Tbe
team evaluated the PIAs or summaries for these ten systems fo r compliance with the E­
Government Act of2002 and OMB guidance. OIG determined that, overall, the
Department had comp li ed with the provis ions of Section 208 of the E-Government Act
while conducting PIAs except for three occurrences wh icb demonstrated that the
Departmen t did not provide information on choices avai lable to individuals regarding
providing personal infonnation . Department officia ls advised OIG that these PIAs were
conducted prior to the implementation of the updated PIA template and that this
information will be provided when the systems are recertified. Further, the Department
did not include any analysis for the ten systems to show what decisions were made by the
agency regarding the system or co ll ect ions of in fo rmation as a result of PIAs.
Department ortic ial s advised OIG that the updated PIA template requires th is type of
analysis. Add itiona lly, the Dcpartment' s Privacy Program Office is taking a strategic
three year approach to migrate all of the existing PIAs to the updated template as the
systems undergo recertification.

        In May 2008, the Department finalized the Persol1ai/y Idenlifiable Information
Breach Response Policy that addresses the provisions of OMB Memorandum M-07- I6.
Also, the Privacy Protection Governance Board (P PBG) met on a regular basis in FY
2007 and 2008. PPGB is responsible for addressing pOlential privacy issues impacti ng
Department programs and initiati ves. The PPGB is chaired by the Assistant Secretary for
Administration as the designatcd Senior Agency Official for Privacy.

        The Computer Incident Response Team (C IRT) coord inates with the
Department's Privacy Office for tracking and report ing Pll breaches. In March 2008,
CIRT notified the U.S. Community Emergency Response Team (US -CE RT) ofa PII
breach regarding passport informat ion belonging to se veral U.S . senators. The OIG
conducted two audits 19 in FY 2008 of passport operat ions in CA that involved breaches
of PIl information.




19 DIG Report A UD/IP-08-19, Sqfegllarding Domestic Passport ApplicaliollS DUl"illg 7"'allsil, March 2008,

and AUDIIP-08-29, Review a/Can/rots and NOfijicalioll/or Access 10 Pa.upOI"l ReCOl'd~ in the Depal'lmen/
0/State·s l'asspOI'l lIifOl"1II0lioll ElectrOllic Records System (PIERS), July 2008.



                                                                                                        19
 Configuration        M~magement


       The Department has made some improvements si nce last year in implementin g
common security con figurati ons. The Department has documented its agency-wide policy
for configuration management in guidance established by DS and IRMIIA. Based on the
documentation provided, the con fi guratio n management policies are found in the
Compute r Secu rity Configuration Guidance standard operating procedures, co nfi guration
guidance, 5 Foreign Affa irs Handbook 11, and on the IT Change Control Board website.
Tbe Department's documentation details policies and procedures that, in part, cover
common security confi guration management and change management co ntrols required
by N IST SP 800-53. Improvements are needed to achieve implementati on of the Federal
Desktop Core Configu ration security settings.

        Bureaus within the Department provided con fi gurat ion management
documentat ion for the system s selected by the 010, such as SSPs, cont in gency plans, and
certil1cation reports. The anal ysis of the documentation as of the third quarter of FY
2008 revealed that contro ls are tested for polic ies and procedures, baseline configuration,
configurat ion change control, and functiona lity. The documentation also indicated that
controls related to change control monitoring, access restri ct ions, and configuration
settings were tested less frequently. Additionally, control number CM -8 Information
System Component Inventory, iden tified from NIST SP 800-53, Revision l-detai ls how
to determine whether the system owners maintain a component inventory-was tested by
only 3 orthe 21 subset systems incl uded in the 010 subset sampl e. IRM/ IA responded to
0 10 by stati ng lhatthe control template distributed to system owners for configuration
management testing was based on N IST S P 800-53A, which did not include the
Information System Com ponent Inventory control. However, the configuration
management testing conducted should have been based on guidance found in NIST SP
800-53 Rev ision I, dated December 2006 and effective December 2007 , which includes
control CM-8.

         OIG also attempted to assess the extent to which the Department bas imp lemented
the configuration management po li cies. The Department utilizes iPost 20 to consol idate
vulnerab il ity scanning data to determ ine sec urity confi guration compliance related to
secur ity comp liance, patch management, and the standard operating environment.
However, the report ing information provided from iPost is for network activity by site
location, not by application, as required by NI ST SP 800-5 3, Revision I. As a result, the
OIG was unable to determine the extent to which the Department had imp lemented its
configuration management contro ls.




:!OiPost is a one-stop-shop for support personnel responsible for monitoring the lnfomlation Technology
infrastnJClUre.


                                                                                                          20
Federal      De~'ktop     Core Configuration (FDCC)

        OMB Memorandum M~07_ ll 21 rcqu ircs agcncics to adopt FDCC standards. The
policy requires agencies to adopt standard security configurations for desktops when
using Microsoft Windows XP and Vista operating systems. OS has deve loped a
configuration guide that documents the comp liance requirements for FDCC configuration
standards for Windows XP operating systems. Although the Department established an
FOCC implementation plan and began its rollout, not all workstations have been
successfully implemented with FOCC standards.

         According to JRMIIA and OS officials, a FDCC review was performed on the
more than 70,000 Wi ndows XP and Vista desktops . IRM/ IA and OS assessed 7,500
desktops (10 percent sample of the total universe) to eva luate compliance for FDCe
implementation. Based on a presentation provided by IRM/ LA, approximately 80 percent
of the controls had becn successfully implemen ted for the 7,500 desktops, and another 8
percent were approved for deviations from compliance, for an overall compliance rate of
88 percent. According to IRM/ IA, the co mpliance test for this sample of desktops was
performed one weck after implementation was conducted. IRM/ IA provided examples to
0 10 o f why the reported success implementation percentage was not higher. This
included machines not being rebooted, connicting gro up pol icies at the opcrationallevel,
scan software not scanning accurately through the network, among others.

        O IG acknowledges that the Department has made sign ificant progress in
complying with FOCC requirements . However, the requ irement for FOCC compliance is
that implementation is made on all Windows XP and Vista desktops, and thi s has not yet
been completed as evidenced from IRM/IA 's testing results. IRMIIA and OS officials
stated that implementation of FDCC sta ndards on all desk.'1ops will be completed by July
2009.

E-A 1I1/tel1liclltio l1

       The Department performed and completed an e-Authcnlication Risk Assessment
Review (e~RAR) for 1,400 systems identified from the data ca ll and the FISMA
reportable inventory. System owners completed the E-Authentication Risk Assess ment
(e~RA) spreadsheets, which IRMIIA officials reviewed for accuracy. Based on the
responses provided to OIG , configurat ion fo r E ~ Aut h entication requirements were
performed adequately and in compl iance with N IST SP 800~63 requirements.

Incident Reporting

        The Departmen t' s incident response program continues to opcrate effectively and
is well coordinated. FISMA requires agencies to establish procedures for detecting,
reporting, and responding to security incidents. NIST SP 800~6 1 provides guidance to
agencies on establishing an effective incident response program. The guidance focuses

21 Office   of Managcment and Budget Mcmorandum M·07· 11 , impfemenlUfion ofCommollly Accepted
Security CO lljigllration jor Windows Operating Systems. March 2007.


                                                                                                 21
on four phases- preparation, detectio n and analysis, containment/eradication/recovery,
and post-incident activity. Having an effective and we ll-coordinated incident response
program helps the Department improve security, minimize loss and destruction, identify
weaknesses, and ensure continui ty of operations.

        The computer inc ident response team (C IRT) within DS is the center o f the
Department 's incident response program. CIRT's efforts to safeguard the Department 's
networks involve collaboration and sharing information with other program s offic ials
within DS , including Cyber Threat Analysis Division (CTAD) and Virus Incident
Response Team (V IRT). In addition, CIRT officials coordinate with IRM ' s Firewall
Team and Enterprise Network Management Operations Center, systems managers ,
informat ion system security offi cers, regional computer securi ty officers, and the privacy
team. CIRT works cohesively with these entities to identify threats; monitor networks;
identify, anal yze, and report anomalies; implement corrective action; and id entify trends
to improve the security posture for the Departmenl.

          Key components of risk management are identifying trends for security incidents
and determining effective ways to deal with them. The CIRT team generates several
reports to keep Department officials aware of continu in g activity and the status of its
operations. These reports include dai ly cyber security briefs and non-malicious events,
CIRT monthly report, and adhoc reports as requested. Department officials advised OIG
that CIRT reports are used to assess and improve the security of the Department ' s
systems. For examp le, CIRT' s da ily reports of non-malicious events are being used by
one official to identify trends that may requ ire reminders to informati on technology staff.
Another o fficial advised that intrusion detection measures have been added to the
organization ' s network as a result of C IRT reports. A third official reviews CIRT reports
for announcements that may help improve the sec urity of the system . Lastl y, privacy
official s stated that a breach incident log has been created to generate reports and
incorporate lessons learned.

         As of August 22, 2008, CIRT opened 2,672 event tickets and closed 2,675
incidents and referred 294 incidents to US-CERT. The types of incidents reported
included improper usage, malicious codes, unauthorized access, and privacy breaches,
among others. CIRT implemented several new in itiatives in FY 2008 to improve it
se rvices and provide more effective analyses and reports, including the following:

   • 	 paying more attention to cyber events that are potentially maliciou s rather then
       non-mali cious;
   • 	 sensoring coverage on networks to capture more anomalies and viruses;
   • 	 aggregating events idell tified from reports and logs from CIRT, CTAD and VIRT
       to identify commonalities;
   • 	 assess ing world events to increase network monitoring activity in affected 

       regions; 

   • 	 providing mandatory training for CIRT analystsj and



                                                                                           22
     •   reporting PI! breaches reported to the privacy team and to US-CERT.


        C IRT assumed responsibi lity for tracking and reporti ng PI! breaches in January
2008 . In March of2008, C IRT notified US-CERT ofa PI! breach regarding passport
information pertaining to several U.S. senators . The OIG conducted two audits 22 in FY
2008 (March and July, respectively) of passport operations in CA . The March 2008
report involved the safeguarding of PII in passports duri ng transit, and the July 2008
report involved PII breaches of passport information stored in the Passport Information
Electron ic Records System (PIERS). As result of the O IG audits, CA has implemented
several measures to improve its operat ions, including the fo ll owing: I) developi ng
gu idance for incident detect ion and report ing for PIERS; 2) developing guideli nes for
rcporting missing or loss passport applications; and 3) assembli ng a security working
group that consists of staff from CA and other Department bureaus that provides
oversight for PI I through e nhanced monitoring of systems and databases, reporti ng and
auditing activity, training, and disc iplinary actions in the event ofa breach in order to
minimize PII breaches .

         In addition, the Privacy Office issued the Department's Personally Identifiable
Information Breach Response Policy in May 2008. Further, offic ia ls continue to
part icipate in CA worki ng groups on mitigation strategies. An official in the Privacy
Office also stated that PII training has also been developed and is provided to new c ivil
serv ice employees who arc enrolled in FS I's Nell' Civil Service Orienlalion and
Orientation/or Civil Service Employees wilh Deparlmenr o/Slale Experience courses. In
addition , PI! training is provided during weekly brie fin gs to information management
officers and student emp loyees participating in the Student Cooperative Employment
Program. Further, train ing on how to conduct pri vacy impact assessments is made
available specifica lly to bureaus and offices.

       I-laving an effective and well coord inated inc ident response program he lps the
Department improve security, minimize loss and destruction , identify weaknesses, and
ensure contin uity of operations.

Security Awareness Training, Pecr-to-Peer File Sharing

         The Department bas made positive progress in its security awareness efforts and
has "mostly" ensured that security aware ness training is accompl ished. Curre ntly, the
Department provides two types of awareness train ing to its system users . This includes
secu rity awareness trai ning and role-based train ing . Security awareness tra ining is
offered througb an online course developed and coordinated with OS, IA . and Foreign
Service Institute (FSI) representatives. Based on documentation OIG received fro m FS I,
the online training material (course number PS800) inc ludes information on user
responsibilities, computer risks, threats and vulnerabilities, and privacy issues. The


22 DIG Report AUDflP-08-19, Safeguarding Domestic I'as~po,.t Applications During Trallsit , March 2008,
and AUD/IP-08 -29, Review ofControls and NOlijiC(lfiolljor Access to Passporl Records in/he Depar/menl
ofState 's I'(/s~port "!formatioll Electrollic Records System (PIERS), July 2008.


                                                                                                    23
training contcnt also incl udes pol icies on the use of co llaborative web technologies and
peer-to-peer file sharing. Per 12 FAM 622.2, the responsibility of staff completing
security awareness training is placed on the Information Systems Security Officer,
Information Management Officer, or system admin istrator. Notices for annual training
requirement are sent via email notifications and Department-wide ann ouncements to
system users. As of August I, 2008, more than 55,000 emp loyees had completed PS800
cou rse for the fisca l year. Role-based training is another awareness training prov ided to
selected indi vidual s, includin g executives, managers, system admini strators, Information
Systems Security Officers, and law enforcement employees w ithin the Department. The
role-based training is an in structor-led course that can also be taken via distance learning.
The train ing incl udes suppl emental modu les focusing on the latest security issues.
Documentation received from the Diplomatic Security Training Center showed that morc
than 900 indiv idual s had enro lled in the role-based training courses as of August 12,
2008.

        The universe for those required to take secu rity awareness training is determ ined
by system acco unts. The issue of multiple accounts fo r the same indi vidual is still a
matter that needs to be addressed by the Department. By having multiple accounts for
the same employee, duplication of training entries can occur, resulting in the Department
not having complete assurance of the tota l number of employees required to take traini ng
on an annual basis. OIG has an open recommendation from its FY 2006 FISMA report
address ing this matter. Per IRM/ IA offici als, the Department is planning to include
training stat isti cs on iPost for each bu reau and overseas post. This wi ll place the burden
on the respective bureau or post Information Systems Security Officers to review and
eliminate duplicate entries to receive a better FI SMA evaluation result on training.

         The Department began addressi ng the awareness train ing requ irement for non·
system employees (i .e. drivers, janitors, and gardeners) thi s fiscal year. In a
Ju ly 31, 2008, memorandum from the CI SO to OIG, the Department states it will provide
awareness training to non-system employees by req uesting Regi onal Security Officers to
give aware ness training to new emp loyees at posts, as well as place posters aro und the
embassy or consulate for di splay. The Department has taken positive steps in this
respect. However, performance metrics would help determine whether the process
performed by the Regional Secu rity Officers is working effectivel y.

Recomm end at ion II : The Chief Information Officer should establish a process to
monitor and va lidate secu rity awareness train ing provided to those indi vid uals without
access to Dcpa rtment networks.




                                                                                              24
RECOMM ENDATIO NS

Recommendation I: The Chief Information Officer shou ld reschedule annual inventory
data call activities to allow sufficient ti me to complete the analysis of pendi ng items prior
to the ann ual FISMA review .

Rcco mmend~ltion 2 : The Ch ief lnfonnation Officer shou ld e nsure that system owners
arc provided with improved guidance fo r properly identify ing contractor-owned or
operated systems and how to report them for systems inventory purposes.

Recommendation 3 : The Chief In formation Officer shou ld ensure that national secu rity
systems are properly class ified and acco unted fo r by the Bureaus of Information
Resources Manageme nt and Dip lomatic Security in thei r respective Federal Information
Security Management Act inventories.

Reco mmcnd ~ltion  4: The ChieF InFo rmation Officer shou ld coo rd inate w ith system
owners to deve lop a method to ensure that each system owner prov ides timely a nd
complete updates to plans of action and milestones databases and relevant officials,
including the Bureau of Information Reso urces Management, Office of Information
Assurance, on a regu lar basis.

Recommendation 5: The Ch ief Information Officer sho uld develop and test system
connection agreement contro l (N IST SP 800-53 contro l CA-3) between Department
system owners and external connection system owners to serve as a compensating control
for systems security plan testin g.

Recommendation 6: Thc Chief Information Office r should rev iew the security control
testing program to ensure that a ll critica l controls are ident ified and tested at least
annually fo r higb and moderate risk systems.

Recommendation 7: The Chief Info rm ation Officer shou ld update its policy o n
contingency planning to requ ire that cont in gency plan test resu lts be incorporated into an
updated system co ntingency plan.

Recommendation 8: The Chief Info rmation Officer sho uld provide gu idance to system
owners to ensure that conti ngency plan test results are adequately documented and
incorporated, as needed, into the plans of action and m ilestone process.

Recommendation 9: Th e Chi ef Informat ion Officer shoul d deve lop and document a
process fo r management and oversight of contractor-owned and/or operated information
systems . This documented process shou ld include, at a mini m um , the process fo r
identiFying and describing the interconnectiv ity between contractor systems and the
Department.




                                                                                            25
Rccommcndation 10: The Cb ier lnrormation Officer shou ld develop and maintain
Interconnection Secu ri ty Agreements and Memoranda or Understanding/Agreements in
System Security Accredi tation fi les.

Rccommcndation 11 : Th e Chier Informati on Officer shou ld establi sh a process to
monitor and va lidate security awareness training provided to those individuals without
access to Department networks .




                                                                                          26
             API' EN"DIX A - DE PART MENT RESPO NSE 




                                                     Clfl¥fb'formofloll OJJlur
                                                     /,,/orm41ioll RaoUl'« !tfrutax~'"

                                                     Wru/li"gtOff, D.C lOJltJ...4J11


                                                     OCT - 2 " '1

UNCLASSIFIED
M EM QRANDUM 


TO:         OIG - M",k W.   Du~      <



FROM :      IRM - Susan H. swaJ # 


SUSJEC I": Review oflhc Information Security Program at the Department of
Siale (AU D/IT·08-36)

      In accordance with the Federal Information Security Management Act
(FISMA), as the Chief Information Officer orThe Department OrSlalC, I am
providing Ibmlai comments to the OIG's official recommendations. My comments
arc aunched for inclusion as an appendix to the OIG's Annual Review of the
Information Security Program at the Depanmcm of Stale (AUOflT-OS-36.
September 2008).

Auached as stated.




                               UNCLASSIFIED




                                                                                         27
M a nagement Co mm ents :

      The Depanment apprttiates both the opportunity 10 comment on Ihis rcpon,
and also appreciates the eITon thatlhe OIG has expended in this year's FISMA
review. Under the leadership of Karen Bdl, the learn ofOIG direct hires and
contractors has conducted a subslamivc review which has identified signi ficant
opportunities to improve the security of the Depanment's information.

       Notwithstanding these positive resu lts, the Depan ment proposes that there is
a collective need to address two outstanding issues to improve the overall FISMA
process (including the annual review).

       Issue 1: Over the last several years, a different FISMA OIG team has
typically conducted the review each year. In each of those years, there have been
divergent ideas about the criteria that the Depanment must meet to satisfy the
FISMA grading cri teria embodied in the Reponing Template for lOs, and related
reporting guidance. Inadvertently, this creates a level of ambiguity that makes it
hard (or impossihle) for the Department to know what to do 10 succeed.

         D IG Ac tion Req uested for Issue I : As a result, the Depanmenl
respect fully requests 010 officials and Depanment security managers meet during
the fi rst quaner of FY09 to establish clear criteria for areas that have caused issues
in the past because of their ambiguity. These criteria would be documented in a
MOA between the OIG and the Depanment to guide subsequent FISMA reviews.
The overall goal of the MOA would be to: a) maintain the independence of the
GIG and its staff, and b) provide the Depanment with a better understanding of
how it can best improve security while complying with the FISMA reponing
criteria.

       Issue 2: Although the OIG recognized significant improvements in all other
areas ofFISMA oversight for the past two years, the GIG has found issues related
to annual testing (speci fically, Repon ing Template for IGs, Question 3a) which
was used tojustify reducing the Depanment's FISMA grade by one full letter
grade in each year. While the Department sincerely appreciates the efforts
undertaken by the OIG's review of the agency-wide infonTl3tion security program,




                                                                                          28
                                          ·2 . 


the DIG's report notes that it did nOI have the resources to take a comprehensive
look all programs areas related to Question 3a. As a result, the Department is
concerned that other weaknesses related to Question 3a may exist that have nOI
been identified.
      OIG Action Requested for Issue 2: As a result ofl ssuc 2, the Department
requests thai the OIG conduct an independent and comprehensive review orlhe
Department's efforts to fulfill the requirements related to Question 3a, and to make
such recommendations as necessary 10 allow the Department to make changes to
the program, as needed, to make the program fully compliant. Moreover, the
Department urgently requests that this be done early enough in fiscal year 2009 so
that implementation orlhe rccommendation(s) could begin in Q2. Ifthc O[G
cannot, for some reason , meet the scope or time frame for this review, the
Department proposes that Ihe OIG hire an independent reviewer to conduct this
study under OIG supervision, consiSlent with the authorities provided by FISMA.

       In its original draft report, the D [G made several suggestions for the
Department to consider for improving its current activities in the areas ofinvenlory
management. contingency plans, and security awareness training that would be
necessary to address the OIG findings. The Department asked that these be
expressed as formal recommendations (and they were) to allow the Department to
provide a clear management response so that we would know how to properly
respond to these items, and so others in the Department would not miss these
significant "suggestions".

      Notwithstanding these concerns, the Department is pleased to note that the
OIG recognized the Department for:

• 	 "Significant effort" in "producing a reliable and accurate inventory under the
    guidelines ofFISMA."
• 	 A "focused effort" Ihal has "markedl y improved its POA&M process since last
    year's FISMA review."
• 	 "Significant improvement this fiscal year in providing the supporting
    documentation that demonstrates its compliance" with C&A Standard,
    justifying a "good" raling of the C&A program.
• 	 Raising the o verall rating of the Privacy progfl!.m from "satisfactory" to "good."




                                                                                          29
                                         -J ­

• 	 Improvements in implementing common security configurations, including: a)
    adopting (he FDCC standard configurations. b) incorporating required FDCC
    acquisition language in new contracts, and c) achieving 88% compliance with
    FDCC requirements by early September 2008.
• 	 Compliance wilh requirements for e-Authentication Risk Assessments.
• 	 Continuing an incident response program which is openued "effectively and is
    well coordinated."

      Having made "positive progress in its security awareneSs efforts," we now
tum 10 the significant findings of this review and what steps will be taken to
address the specific opportunities for improvement identified by the DIG.

      Recommendation 1: The Chieflnformlllioll Officer !)'hollid reschedule
      alillua/ inventory data call activities to allow sufficient time (0 complete the
      analysis ofpending items prior to the Qllnual F1SMA review.

      The Department notes that while implementing this recommendation will
not improve the overall high quality of the Department's inventory process, it will
reduce ambiguity at the rime of the FISMA review. This is a valid and valuable
outcome. Thus, the Depanment concurs with this reconunendation.

       The Department also notes: a) the need to focus on identifying any missing
"contractor systems·' and interconnections (see recommendations 2, 5, and 9), and
b) conducting more than one full data call in any 12-month period would
significantly erode field willingness to participate .

     In the light of these considerations, the Department will address this
recommendation by taking the following actions:

   • 	 The FY2009 inventory data call w ill provide increased focus on defining and
       identifying "contractor systems'· and "system connections" tha t may be
       missing.
   • 	 The FY2009 data call will be initiated in early FY2009.
   • 	 Routi ne quarterly inventory data calls will remind bureau and post system
       owners to report new systems, significant changes, etc.

   For comprehensive reponing purposes, the Department's inventory process is
   described below:




                                                                                         30
                                                    ·4· 


     • 	 The inventory data call process is designed as a screening process to identify
         assets which mov need 10 be in inventory. II is explicitly designed \0
         prcvCnI those responding nOI to be able to exclude systems that need \0 be
         reponed. The result of Ihis focus on avoiding missing systems is a higher
         rate of false posilives. But, importantly, this first step helps significantly \0
         ensure that all Department systems that might need 10 be added to invenlory
         are considered.
     • 	 The second test is the analysis of pending items conducted by system owners
         after the data call, carefully guided by IRMflA FISMA inventory experts.
         TIllS is a rigorous documented process, implemented through careful
         application of FISMA, OMB, a.nd NIST guidance. Conducting this level of
         analysis before the data call on all "assc:ts" that might be systems would be
         prohibitively expensive. Conducting it on the pending items after the data
         call ensures that false positives are eliminated and that just the right set of
         missing systems are added to inventory.
      In summary, the Depanment is proud ofilS overall inventory process, and
views the step of identifying a large number of candidate systems for expen
screening to be one of the main strengths of the process, not a weakness. If the
Depanmcn l changed the data call to identify fewer pending (candidate) systems for
the more rigorous second test stage, the overall confidence in the inventory
completeness would likely be significantly compromised.

         Recomm f!ndalion 2: The ChiefIIIformation Officer should ensure that
         system owners are provided with impro~-ed guidancefor properly identifYing
         contraclor--ownf!ti or operaled systems ulld how to reportlhem lor systems
         inl'lYllory pllrposes.

         The Department concurs with this recommendation. The CIO will direet
IRM/ IA to review existing laws and regula tions regarding criteria to identify which
systems are to be included in the Dcpanmcnt's inventory. Based on this review.
1R..\.1/1A will add appropriate guidance 10 the Depanmcnt's "Inventory Toolki t'" to
ensure accurate and consistent guidance is provided to system owners in this

, ThIs looldr. and OIMn   .",,,,.ood
                                tt) In his docu~1. •• ckIJ.",t'" In Oepanmetlt Nod... JODt_O'_ UI at
lequired ptGUOufe1o 10 be Implemented 10 conducIlhe ~metln Certltlut;"n lnod ACcrltdliltlotl pt(llrOln'l
Mcordlrla to Of:PII1mef'1I pOlIcy.




                                                                                                           31
                                                   -5­

regard. This improvement will provide significantly increased assurance that all
Department systc:ms1 (and only the Department's systems) are included in the:
Department inventory.

        Recommendation 3: The Chief Information Officer should ensure that
        natiOllal security systems are properly classified and accountedfor by the
        Burea/u ofIn/omlolio" Resources Monogemem and Diplomatic Security in
        their respective Federal/nformation Security Management Act inventories.

       The Department concurs with this recommendation. The CIO directs
IRM / IA to modify the Department 's " Inventory Toolkit" \0 clarify which systems
are inventoried by IRMIIA and which are invt:ntoried by DS/SIIIS in support oflhe
Intelligence Community C hief Infont'l3lion Officer's FISMA reporting. This
improvement will ensure that system owners will be able 10 easily verify the
cOlTect venue in which to report each system.

        Recommendation 4: 17le Chie/ln/ormation Officer should coordinate wi/II
        system owners 10 develop a method 10 ensure thaI each system owner
        provides limely and complete updates /0 plans ofactioll and milestones
        do/abases alld relevan/ officials, including Ihe Bureau ofIllformat/on
        Resources Managemenl/ Office ofInforow/ioll Assurance, on a regular basis.

      The Department concurs with this recommcndation. The CIO will send
formal quarterly grade letters fro m the CIO to bureau executives on the qual ity of
bureau plan of action and milestones (POA&M) process implementation. This will
cover: 3) timely and complete identification of weaknesses, b) development of
remediation plans, c) implementation ofreme<iiation, and d) management of
weaknesses (including timely and completc quarterly updatcs of status). These
improvements will help ensure that system owners: a) define actionable tasks to
address weaknesses, b) define appropriate priori ty to each action, and c) allocate
appropriate resources to complete those tasks and documentthcm in the POA&M
system.



'Ccnslslenl with FISMA lOIId OMB luthorit)es, 1M lerm ~ttml!nt ~!em," uwd t.tre to refer not ju.\ \g
....., _ ~ and ~lH bvlhot ~tt ......, (al<a·~ .....,em.... L bulll\.O 'MKe ~Ilfod 0tI bHI.11 olm.
Depirt~t byothets I~ tMy m~~, iU "tonlJ iKtOf sYl>trms'"). This Ie<m, U usl'd i'lrfe, doe1 ",,'lndude
~Irms..mldl Irr not III>def the uJtimllecontrol..,d Iftl)On~ity of l/Ie Orpiflment, per OMB flSMA luidancr.




                                                                                                              32
                                        -6­

      Recommendation 5: The ChiefInformation Officer should develop and test
      system conneclion agreemem control (N/ST SP 800-53 control CA-J)
      between Department system owners and external connection system owners
      10 sen.'f! as a compensating conlrolfor systems security plan testing.

       The Department concurs with this recommendation. The CIO will also add
infonnatiOIl to the C&A Toolkit clearly articulating FISMA--compliant policy on:
a) identifying, b) assessing the risk of, and c) obtaining connection agreements for
such connections. Next. the CIO will modify the FY2OQ9 inventory data call (see
recommendation 8) to include a focus on system connections. With respect 10 the
interconnections, this will include: a) reviewing the completeness and content of
system connections identified in each existing System Security Plan (SSP). b)
accurately assessing the risk lhose connections pose to other Departmcnt systcms,
and c) verifying (at least annually) that all active conncctions to/from ex isting
major information systems are complctely listed in the systems ' SSPs. With
rcgard to the external systems on the other end of each conncction, this data call
will include: a) verifying whether the connected systcms are Depanmem systems
(see recommendation 2), and b) adding any interconnected Oepanmcnl systems \0
inventory. as needed. These improvements will help ensure that the Depanment
fully complies with both NIST SP 800-53 controls, CA-3 and NIST SP 800-47.

       The Depanment notes that the definition of what constitutes a system
conncctionlinlerconneclion is unclear in existing Federal guidance. To address
this, IRMIlA will develop guidance in its Inventory and C&A Toolkits to clarify
what constitutes an interconnection. This improvement will both help ensure not
only that system owners actively address all actual connections, but also that
systems owners do nOI wasle time being confused about what consti tutes such a
connection.

      Recomm endation 6: The Chief Information Officer should re"h.'lll the
      security conlrol testing program to ensure tltat all critical controls are
      identified and tested at least anllually for high alld moderate risk systems.

      The Depanment concurs with this recommendation, and nOtes thai the OIG's
finding that all critical controls are \0 ~ tested at least annually for high and




                                                                                       33
                                          - 7­

moderate risk systems is one of the most significam results from this year's report,
and will have positive impact on security when implemented.

      The Department notes thai in spite of the identified weakness in the policy
program related to annual testing, several systems owners (notably the Bureau of
Consular Affairs) were conducting annual testing of controls the OIG determined
\0 be critical . This demonstrates the thoughtfulness and good faith of Department
system owners.
        The Department also notes that its Si te Risk Scoring program provides
continuous monitoring. morc freq uently than annually, ofa wide range or controls
critical to its networks and the applications that operate thereon. This helps
demonstrate the good faith of the CIO, elSa, os and other program officials
responsible for infonnation assurance al the Department.

       The Department notes that during the FY08 FISMA review the 0 10 learn
used their professional judgment to identify a particular set of"critical controls"
(as specified by N IST SP 800-53, CORlrol CA-3) onfv fo r Ihe purpose of their
review this year (since the Department had nOI done this). However, it is the
Department who has the authority and responsibility to determine which controls it
will consider to be critical and volatile using a risk-based analysis, as long as it
implements a reasonable process to defi ne such comrols in compliance with the
guidance from NIST. The controls idemified by the Department need not
necessarily match those that the DIG identified this year, and may vary among
major informmion systems based on the risks identified.

       To address this recommendation, the J)cpartment will develop its Ann ual
Control Assessment Toolki t to provide clear criteria and a process fo r system
owners to Identify which controls arc cri tical and/or volatile for each particular
system. Next, the toolkit will be modified to provide explicit policy that critical
and volatile controls are to be tes ted annually. Finally, the Department will
organize workshops to introduce th is change to system O....'flcrs. These
improvements will ensure that system owners use a valid and reliable process to
identify critical and volati le controls, and thatlhese are tested al leas! annually.




                                                                                        34
                                        ·8 .

      Recommelldation 7: The ChiefIn/ormation Officer should update its
      policy on contingency planning /0 require that contingency plan rcst results
      be incorporated into all updated system contingency plan.

      The Depanment concurs with this recommendation. To help ensure
implementation of this process, the elO will issue clear directions to system
owners requiring this action, by adding this guidance to its Contingency Plan Test
Toolkit. IRMIIA will also add this requiremenllo its contingency plan test
completion checklist process 10 provide oversight.

      Recommendation 8: The Chief Information Officer should prOVide
      guidance 10 s),slem owners 10 e/lsure that contingency plan lest results are
      adequately documented alld incorporated, as needed, info the plal/s of
      action and milestone process.

       The Department concurs with this recommendation, and agrees with the
OIG 's find ing that implementation of an improved process to document
contingency plan test results will largely resolve this recommendation. To help
ensure implementation of this process, the CIO will issue guidance to system
owners stressing the importance of this improvement and requiring implementation
of this process. 111e Department will also develop its Contingency Plan Test
Toolkit to provide cle:lr directions to system owners on this process.

      Recommendation 9: The Chie/lnformation Officer should develop and
      document a process for managemem alld oversight ofCOlltractor-owned
      andlor operated ill/ormation systems. This doculII€lIted process should
      inelude, at a lI1inimllll1. the process for idemifyillg and describing the
      interconnectivi!y befween contractor systems and the Departmenl.

       The Department concurs with this recommendation. The Depanment
believes that the actions proposed to address recommendations 1,2, and 5 will also
adequatdy address this recommendation. These improvements will help ensure: a)
that a reliable and valid process is used to detennine which contractor owned
and/or operated systems are Department systems (see ret:ommendations I and 2),
b) that all interconnections are documented and tested before being placed in
operation (see recommendation 2), and c) that such interconnections are tested at
the required frequency thereafter (see recommendation 5).




                                                                                     35
                                       - 9­

      Recomm endation 10: The ChiefInformation Officer should develop and
      maintain Interconnection Security Agreements and Memoranda of
      Understanding/Agreements il/ System Security Accredilalion flies.

      The Department concurs with this recommendation. The C IO directs
IRMIJA to: a) modify the Departmen t's C&A Toolkit to ensure that the system
owners understand the need to document interconnections, and b) validate the
IRM/IA C&A completion cht.-cklists verify thai all such agreements that may be
required are on file in IRMIIA.

      Recommendation 1 J: The ChiefInformation Officer should establish a
      process 10 monitor Ihe exlentla which securit), awareness training has been
      provided to those individuals without access 10 Depor/men/networks.

      The Department concurs with Ihis recommendation. Thc C ISO will selcct a
simplc random sample of facilities where such employees are employed. Bureau
EX/DIRs and/or post DeMs for these facilities shall be asked to assign stafTto
revicw and objectively repon whether the designed materi;]]s were provided to
stalTmembers al each si te.




                                                                                    36
FR<\.UD. WASTE, ABUSE OR MISMANAGEMENT
               of Federal programs
          and resources huns everyone.

      Call the Office of Inspector General 

                   HOTLINE 

                  202/647-3320
               or 1-800-409-9926 

         or e-mail oighotline@state.gov 

      to repon illegal or wasteful activities. 


              You may also write to 

           Office of Inspector General 

            U.S. Department of State 

              Post Office Box 9778 

              Arlington. VA 22219 

     Please visit our website at oig.state.goY

        Cables to the Inspector General
       should be slugged "OJG Channel"
           to ensure confidentiality.
